Nos. 19-1231 & 19-1241
IN THE

Supreme Court of the United States
FEDERAL COMMUNICATIONS COMMISSION, ET AL.,
Petitioners,
v.
PROMETHEUS RADIO PROJECT, ET AL.,
Respondents.
NATIONAL ASSOCIATION OF BROADCASTERS, ET AL.,
Petitioners,
v.
PROMETHEUS RADIO PROJECT, ET AL.,
Respondents.

CERTIFICATE OF SERVICE

I hereby certify that I am a member in good standing of the bar of this Court and
that on this 16th day of November, 2020, I caused three copies of the Opening Brief for
Industry Petitioners to be served by third-party commercial carrier on the counsel
identified below, and caused an electronic version to be transmitted to the counsel
identified below, pursuant to Rule 29.5 of the Rules of this Court. All parties required
to be served have been served.
Jeffrey B. Wall
Acting Solicitor General
U.S. DEPARTMENT OF JUSTICE
950 Pennsylvania Avenue, NW
Room 5616
Washington, DC 20530
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for FCC, et al.

Ruthanne M. Deutsch
DEUTSCH HUNT, PLLC
300 New Jersey Avenue, NW
Suite 900
Washington, DC 20001
(202) 868-6915
rdeutsch@deutschhunt.com
Counsel for Prometheus Radio Project,
et al.

Dennis Lane

Jack N. Goodman

1775 Pennsylvania Avenue, NW
Suite 800
Washington, DC 20006
(202) 572-9906
dennis.lane@stinson.com

1200 New Hampshire Avenue, NW
Suite 600
Washington, DC 20036
(202) 776-2045
jack@jackngoodman.com

Counsel for Multicultural Media,
Telecom and Internet Council, et al.

Counsel for Independent Television
Group

LAW OFFICES OF JACK N. GoODMAN

STINSONLLP

Andrew Jay Schwartzman
1341 G Street, NW
Fifth Floor
Washington, DC 20005
(202) 241-2408
andyschwartzman@gmail.com

Counsel for Benton Institute for
Broadband & Society, et al.

2

